<html>
<title> - THE STRATEGIC IMPORTANCE OF THE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





                    THE STRATEGIC IMPORTANCE OF THE
                   WESTERN HEMISPHERE: DEFINING U.S.
                        INTERESTS IN THE REGION

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                      
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 3, 2015

                               __________

                           Serial No. 114-12

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                       
                                   ______

                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-156 PDF                    WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                      

                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                 JEFF DUNCAN, South Carolina, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         JOAQUIN CASTRO, Texas
MICHAEL T. McCAUL, Texas             ROBIN L. KELLY, Illinois
MATT SALMON, Arizona                 GREGORY W. MEEKS, New York
RON DeSANTIS, Florida                ALAN GRAYSON, Florida
TED S. YOHO, Florida                 ALAN S. LOWENTHAL, California
TOM EMMER, Minnesota

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Shannon K. O'Neil, Ph.D., senior fellow for Latin America 
  studies, Council on Foreign Relations..........................    12
Ms. Bonnie Glick, senior vice president, GlobalConnect Division, 
  Meridian International Center..................................    21
Evan Ellis, Ph.D., author........................................    33
Mr. Eric Farnsworth, vice president, Council of the Americas and 
  Americas Society...............................................    49

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Shannon K. O'Neil, Ph.D.: Prepared statement.....................    15
Ms. Bonnie Glick: Prepared statement.............................    24
Evan Ellis, Ph.D.: Prepared statement............................    35
Mr. Eric Farnsworth: Prepared statement..........................    52

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
Written responses from Mr. Eric Farnsworth to questions submitted 
  for the record by the Honorable Jeff Duncan, a Representative 
  in Congress from the State of South Carolina, and chairman, 
  Subcommittee on the Western Hemisphere.........................    74

 
                    THE STRATEGIC IMPORTANCE OF THE

                   WESTERN HEMISPHERE: DEFINING U.S.

                        INTERESTS IN THE REGION

                              ----------                              


                       TUESDAY, FEBRUARY 3, 2015

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 11 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Jeff Duncan 
(chairman of the subcommittee) presiding.
    Mr. Duncan. A quorum being present, the subcommittee will 
come to order. I will start by recognizing myself and the 
ranking member to present our opening statements.
    Since this is our first subcommittee hearing in the 114th 
Congress, I will recognize members of the subcommittee that may 
be present after my opening statement and the ranking member's 
opening statement for 1 minute to present their opening 
remarks, introduce themselves to the committee and, if they 
wish to do so, they may also submit remarks for the record.
    So I will now yield myself as much time as I may consume to 
present my opening statement. My name is Jeff Duncan. I am 
proud to be the subcommittee chairman on the Western 
Hemisphere.
    I previously served as subcommittee chairman in the House 
Homeland Security Committee, the Subcommittee on Oversight and 
Management Efficiency and I am glad to be here in the Western 
Hemisphere Subcommittee.
    So let me extend a warm welcome to the returning members of 
the subcommittee and I am grateful for the friendship and 
partnership of the ranking member, Mr. Sires, from New Jersey.
    I look forward to working closely with Albio and the 
members of this subcommittee to help make the Department of 
State and USAID's action in the Western Hemisphere as efficient 
and effective as possible in order to advance U.S. interests in 
the region.
    I would also like to introduce our new members and the only 
one on my side of the aisle is Mr. DeSantis from Florida. But 
the other members on the subcommittee are Ted Yoho from 
Florida, Tom Emmer from Minnesota--on the minority side, Mr. 
Joaquin Castro of Texas, Robin Kelly of Illinois, and Alan 
Lowenthal of California.
    Each bring a wealth of experience and I am glad to have 
them on the subcommittee. On the majority side, our staff is 
Mark Walker--I guess the chief of the subcommittee staff--and 
Rebecca Ulrich, who formerly worked for me in my office and 
also on the subcommittee on Homeland Security, and Joske 
Bautista on the end down there working for the subcommittee.
    Those are on the majority side and I hope the ranking 
member will introduce the--some of his staff members on the 
minority side because we work closely together. It is important 
for our members to lean on our team to make sure we are 
effective and if we can do that.
    Today, I want to consider the strategic importance of the 
Western Hemisphere for U.S. interests. While our attention is 
often captivated by events in Asia, Europe, the Middle East, 
and North Africa, I do not believe that crises and firefighting 
should determine the level of a region's priority for the 
United States.
    I have travelled extensively in the region--Argentina, 
Brazil, Canada, Colombia, Mexico, Paraguay and Peru both in my 
private life and also through official duties. I have got a 
deep affinity for the entrepreneurial people and cultures of 
the region.
    I also firmly believe that U.S. should pay more attention 
to countries in the Western Hemisphere. These countries by 
virtue of proximity, trade, travel or culture have the ability 
to truly influence the United States and our lack of focus on 
issues right here in our own neighborhood is a disservice to 
the American people and to our committed partners within the 
region.
    Although Roosevelt pledged the United States to the policy 
of a good neighbor in 1933, the U.S. has drifted in many ways 
toward benign neglect of our neighbors in Latin America and the 
Caribbean.
    U.S. disengagement, evidenced by unsustained U.S. attention 
and tactical rather than strategic approaches in the region, 
has enabled other actors to step into the vacuum of leadership.
    While countries in the Western Hemisphere do not experience 
the same level of chronic instability as others around the 
globe, this region is unique by virtue of its geography.
    With no ocean separating the Americas, both threats and 
opportunities in Canada, the Caribbean, Latin America have a 
greater potential to impact the United States homeland and the 
American people as well as American businesses. Therefore, we 
must remain vigilant and truly engaged.
    This year promises to be a very interesting year. With 
President Obama's Cuba policy shift and recent bilateral talks 
in Havana, this subcommittee will do its due diligence to hold 
the administration accountable for its actions on Cuba in order 
to require demonstrable results that benefit the Cuban people.
    Venezuela's unstable situation, deteriorating economic 
conditions with major shortages and inflation at over 60 
percent, declining oil production and human rights abuses also 
require sustained U.S. attention.
    Furthermore, this year's election of a new secretary 
general at the Organization of American States, or the OAS, and 
Federal municipal elections in 13 countries in the hemisphere 
promise to keep us focused on advocating for transparency, 
adherence to the rule of law and democratic governance, as well 
as religious and press freedoms in the hemisphere.
    Over 68,000 unaccompanied children crossed the U.S.-Mexico 
border last summer. This subcommittee will work to keep the 
administration accountable to securing the U.S.-Mexico border 
and preventing a second surge of migrants from Central America 
through wise use of American tax dollars.
    Finally, the U.S. assumption of the chairmanship of the 
Arctic Council later this spring provides an excellent 
opportunity for active leadership on energy, security and 
freedom of navigation issues in and around the Arctic.
    Since coming to Congress in 2011, I have had three simple 
priorities summarized by the acronym JEFF--create jobs for the 
American people, promote U.S. energy security and exports and 
return to the wisdom of our Founding Fathers.
    I believe there are many ways to dig deeper into each of 
these areas with U.S. interests in the Western Hemisphere. 
First, we have seen many opportunities for U.S. businesses to 
engage in the region and create more American jobs in the U.S. 
as a result.
    This region as a whole is one of the fastest growing 
trading partners. For instance, according to the inter-American 
dialogue, between 2000 and 2013, U.S. sales to Latin America 
more than doubled as did the region exports to U.S. markets.
    In fact, the U.S. provides almost 90 percent of the $60 
billion of remittance income to the region and has six free 
trade agreements involving 12 countries in the Western 
Hemisphere. This includes four individual FTAs, NAFTA, CAFTA, 
Dominican Republic.
    Opportunities also exist for more trade with the Pacific 
Alliance countries of Chile, Colombia, Mexico, and Peru, which 
represent 36 percent of the region's economy, 50 percent of its 
international trade and 41 percent of all incoming foreign 
investment.
    Additionally, with Canada, Chile, Mexico, and Peru all 
participating in Trans-Pacific Partnership (TPP) negotiations, 
I am very interested to see how TPP will impact the region.
    Similarly, Chile became the 38th participant in the visa 
waiver program 1 year ago this month and U.S. Departments of 
State and Homeland Security have been in discussions with the 
Governments of Brazil and Uruguay about the criteria for 
joining the visa waiver program. That will make it easier for 
citizens to travel between our countries and for private sector 
investment and collaboration within these countries.
    Second, energy opportunities abound in the region today. I 
am excited about the potential for U.S. energy exports from our 
neighbors in the hemisphere. In the 113th Congress, I authored 
legislation to implement the Outer Continental Shelf Trans 
Boundary Hydrocarbon Agreement between Mexico and the United 
States.
    This was approved by the House and ultimately signed into 
law by the President. I believe we can do so much more on the 
energy front. The Western Hemisphere is home to nearly a third 
of the world's oil and the region has nearly 337 billion 
barrels of estimated recovery in oil, and 20 percent of the 
world's proven oil reserves.
    The abundance of U.S. reserves in oil and natural gas and 
shale gas resources, the capability to export, liquefy and 
compress natural gas and the administration's recent 
announcement of offshore drilling in the Atlantic, the U.S. has 
many reasons to partner with like-minded countries who seek to 
spur economic growth, achieve energy security, and reduce 
energy cost.
    Venezuela's dire situation, resulting impact on its 
Petrocaribe program, has caused 18 Central American and 
Caribbean nations that receive its oil on preferential terms to 
look elsewhere for energy security. The U.S. is a natural 
partner for these policies.
    On January 27th, the ranking member and I co-hosted an 
event with Members of Congress and Caribbean leaders who were 
in Washington for the Caribbean Energy Security Summit.
    We discussed ways to deepen energy cooperation to assist 
Caribbean nations in achieving energy security. Given current 
circumstances and the additional potential for offshore 
resources--resource exploration that Aruba, the Bahamas, the 
Dominican Republic and Trinidad are considering, U.S. 
businesses have a significant opportunity to engage.
    Similarly, the potential for cooperation with Canada 
through the Keystone Pipeline and Mexico's energy sector 
reforms could truly take us a long way toward becoming North 
American energy independent if we work together to achieve that 
goal.
    Likewise, energy opportunities in Argentina, Brazil, 
Colombia, and Peru could also make our hemisphere even more 
energy independent. And then, finally, in addition to jobs and 
energy I believe that we must recall the wisdom of our Founding 
Fathers.
    In 1793, George Washington warned a young America that a 
reputation of weakness could lead to a loss of America's rank 
among nations and that if we desire to secure peace it must be 
known that we are at all times ready for war.
    Washington also believed a uniform and well digested plan 
was vital to meeting these objectives. These words still ring 
true today--peace through strength. In the 112th Congress, I 
authorized legislation to address Iran's activity in the 
Western Hemisphere.
    Passed by both houses of Congress and signed into law by 
President Obama, this legislation required that U.S. develop a 
strategy to counter Iran's activity in the region.
    The recent mysterious death of Argentine prosecutor Alberto 
Nisman underscores the importance of being alert instead of 
ignoring congressional concerns, as it seems the administration 
has done.
    Nisman bravely and boldly gave his life, holding the 
Government of Iran accountable for its role in the 1994 AMIA 
terrorist attack. Through meticulous work he exposed Iran's 
operations in the Western Hemisphere using Embassies, mosques, 
front companies, intelligence bases and sleeper cells to 
accomplish its purposes.
    I remain deeply concerned about Iran's actions in the 
Western Hemisphere with evidence of a growing presence of 
China, North Korea, and Russia here in the Americas. We must 
remain ever vigilant.
    With that, I turn to the ranking member, Albio Sires, for 
his opening statement. I look forward to hearing from our 
expert panel of witnesses and I thank you for being here today 
and I look forward to a lot of great things happening on this 
subcommittee. And with that, I yield to the ranking member.
    Mr. Sires. Thank you, Mr. Chairman, and congratulations to 
you and a warm welcome to our witnesses who have been here 
today. Before I get started, I also want to recognize some of 
the new members that we have in our subcommittee--from Texas, 
Joaquin Castro, from Illinois, Robin Kelly, and from 
California, Alan Lowenthal.
    Welcome to the committee, and I also want to recognize the 
former chairman who we work great--great 2 years. Nice to see 
that you are still interested working with us on the Western 
Hemisphere although you have moved on. Nice to see you, man.
    And I want to express my appreciation to you, Mr. Chairman, 
for immediately reaching out and meeting with me to discuss how 
we can work together. We share many of the same concerns and 
aspirations and I feel encouraged by our desire to move forward 
in a bipartisan manner.
    I look forward to working with you and the members of the 
subcommittee to address the numerous issues affecting our 
nation and neighbors in the hemisphere.
    I am certain that the members of this subcommittee all 
agree on the strategic importance of the Western Hemisphere to 
U.S. interests. We may disagree on varying degree--to a varying 
degree on the scope and manner by which we approach certain 
issues.
    But we ultimately want a similar peaceful, democratic, free 
and prosperous hemisphere--a hemisphere that upholds the Inter 
American Democratic Charter and respects basic human rights of 
free speech and assembly; a hemisphere whose citizens can elect 
their leaders freely and democratically without fear or 
coercion; a hemisphere whose citizens are safe and secure and a 
hemisphere whose leaders uphold the rule of law and whose 
citizens can aspire to some hope--to the same hopes and 
opportunities that we have in our country.
    I have long advocated for a more focused engagement with 
the hemisphere. Yet, after 9/11 our focus has been on the 
Middle East, Asia and elsewhere. However, I believe we are 
finally turning the page in this regard.
    While I have some clear differences and concerns with 
recent policy action taken in regards to Cuba, overall there 
are positive indications that the Western Hemisphere is finally 
getting the focus and attention it rightly deserves.
    Late last year, the U.S. hosted the Presidents from 
Honduras, El Salvador and Guatemala to address the high level 
of violence and lack of opportunity affecting their countries.
    In 2015, Mexican President Enrique Penna Nieto was the 
first leader--the first head of state to visit Washington. With 
oil prices falling and the economies of oil-exporting nations 
like Venezuela hurting, the U.S. hosted a Caribbean energy 
summit that could help the region diversify their dependence 
from Petrocaribe.
    Additionally, the administration's recent announcement 
committing $1 billion for Central America is a significant 
step. If approved, it will go far in helping improve the 
safety, security and economic well-being of the region that is 
amongst the most violent in the world and a pathway for illicit 
drugs bound for the United States.
    For detractors that doubt the strategic relevance of the 
region to the United States, I need only to remind them of the 
humanitarian crisis that erupted on our southern border. 
Thousands of young women and children fled their country 
escaping violence or were lured by coyotes with false hope of a 
broken U.S. immigration system.
    It is also but a down payment compared to the cost of doing 
nothing, and yet this issue merely underscores lingering 
problems in terms of weak institutions, corruption and poverty. 
Indeed, together with changing demographics and economic 
trends, there will be many challenges facing the hemisphere.
    But there are also many opportunities that will serve to 
integrate us further. More than half of the U.S. immigrants 
come from the Western Hemisphere. Geographic proximity has 
forged strong and robust commercial ties.
    In spite of an increasing Chinese presence, U.S. trade with 
the region was more than three times that of China in 2013. 
Canada is our number one trading partner and Mexico is a close 
third.
    Today, we are witnessing a global economic adjustment with 
a decline in oil and commodity prices. China's economy is 
cooling and with it is demand for natural resources from key 
markets in South America.
    Countries that benefited from high commodity prices will 
face difficult decisions while importers will be given some 
breathing room. On the other hand, the U.S. economy is 
rebounding alongside a North American energy transformation 
with broad geopolitical implications. Elsewhere, there is a 
combination of promise and concern.
    Mexico has come a long way but the context behind the death 
and disappearance of 43 university students has revealed 
shortcomings in dealings with corruption and violence.
    Brazil and Argentina are countries with which our relations 
can be much improved. The sudden tragic death of Argentina 
prosecutor Alberto Nisman was a shock. But I implore Argentine 
authorities to commit themselves to fully investigate the 
matter and continue his work to bring those behind the horrific 
1994 AMIA bombing to justice. And in Colombia, our strongest 
regional ally, there is a potential to end a 50-year-old 
conflict.
    While I have many reservations about trusting the FARC, I 
stand completely committed to supporting the people of Colombia 
as they move forward and I believe the United States should do 
the same.
    I look forward to hearing from our witnesses and working 
with the chairman and our members to address these issues. 
Thank you.
    Mr. Duncan. I want to thank the ranking member and he is 
exactly correct that we are going to work well together and I 
value our relationship.
    I heard one thing that he said. I wanted to make sure I 
clarify. I heard him say China was our best trading partner. 
Canada is our largest and best trading partner. That was in his 
notes and I am not sure if what he said but what I heard. But I 
just want to make sure that--that Canada is our largest trading 
partner and I think that is what you intended to say.
    Mr. Sires. My accent.
    Mr. Duncan. Yes, sir. What I would like to do is, because 
this is our first meeting I would like to give all the members 
a chance for 1 minute to introduce yourself.
    If you want to state, you know, your goal as a subcommittee 
member or maybe what your focus is so we all can get to know 
each other just a little bit better and the audience can as 
well.
    So I will start by recognizing the first member is Mr. 
DeSantis from Florida for 1 minute.
    Mr. DeSantis. Well, thank you, Mr. Chairman. I look forward 
to our work over these next 2 years. We have some important 
things that we need to tackle, most recently with what the 
administration has done with Cuba policy.
    Here you have a regime that was really struggling with 
their patrons in Moscow and Caracas, roiled by lower energy 
prices, and this is essentially a unilateral concession, a huge 
lifeline to the Castro government.
    I think it was a major mistake. We worked very hard on this 
committee last Congress to stand up for the people in Venezuela 
who were chafing under the Maduro regime. I think the 
administration has had a tepid response to that.
    Finally, there has been some action taken in the last few 
days but I think we have got to unequivocally stand with those 
freedom fighters in Venezuela.
    And I think, finally, we do have to be concerned with the 
rise of rogue state actors in our hemisphere and we have seen 
that with Iran. We have seen it with North Korea and we also 
have, of course, rival states like Russia and China who are 
seeking to have a foothold here. So I look forward to it and 
congratulations on your chairmanship.
    Mr. Duncan. Thank you. The Chair will recognize Mr. Meeks 
from New York for 1 minute.
    Mr. Meeks. Thank you, Mr. Chairman, and I also want to 
thank my good friend, Ranking Member Sires, and I am delighted 
to be serving on this subcommittee once again and I look 
forward to working with you on a region that must be a top 
priority for our nation.
    As a New York representative, I am mindful at all times of 
the benefits of harmonious and thriving relationships with the 
region. Canada borders my state and our partnership is deep and 
thriving.
    Top energy--Canada is our top energy supplier, top trading 
partner. The list is long, and I know my colleagues to the 
south can say similar things about Mexico. In all my years on 
this committee I do not recall a more promising time in 
hemispheric developments.
    While it is true that we still have many intractable 
problems to tackle, it is also true that today we will be 
discussing developments that not long ago seemed out of reach. 
In my estimation we are finally witnessing the dismantling of 
deeply entrenched Cold War vestiges.
    When I travel to Colombia, most of the people I meet have 
known nothing but civil war conflict that has raged in the 
nation for over 50 years. Now, the world's longest lasting 
civil war is on the brink of peace as the FARC guerrillas and 
the Government of Colombia engaged in talks in Havana.
    A little over a year after making the Colombia embargo 
permanent, speaking at the White House to a room full of over 
200 Latin American diplomats, President Kennedy proposed the 
Alliance for Progressive Initiative.
    It was a 10-year planned partnership with regional 
governments to facilitate social and economic advancement in 
Latin America to, in his words, ``build a hemisphere where all 
men can hope for a sustainable standard of living and all can 
live out their lives in dignity and freedom,'' and at that 
unveiling JFK made an acknowledgement that would ring true for 
some decades to come when he said, ``Let me be the first to 
admit that we North Americans have not always grasped the 
significance of this common mission.''
    So I know, Mr. Chairman, that in just a couple of months at 
the upcoming Summit of the Americas our nation will demonstrate 
that we Americans do fully grasp the significance of our 
commonality with our neighbors in the region and I am confident 
that recent changes by the Obama administration to U.S.-Cuba 
policy and other forward-looking policy changes toward Latin 
America and the Caribbean will put America more in sync with 
our regional allies.
    Let me just say this as I close that I am looking forward 
to hearing from our witnesses today about the significance of 
the monumental changes on the horizon for our region and how we 
might embrace and advance a common agenda in the months ahead.
    I have read your testimony and I know that you have an 
expansive wealth of knowledge to gain and I have to gain from 
your knowledge. I look forward to hearing your testimony. Thank 
you.
    Mr. Duncan. Thank you, Mr. Meeks.
    The Chair will recognize Mr. Emmer from Minnesota for 1 
minute.
    Mr. Emmer. Thank you, Mr. Chair. My name is Tom Emmer and I 
am from Minnesota. I want to thank you and Ranking Member 
Sires.
    I am excited to serve on this subcommittee because of the 
strategic importance of the region to the United States and the 
entire world. Serving as a major trade, energy and economic 
region, the Western Hemisphere offers numerous emerging 
opportunities to the United States today and for the decades to 
come.
    I am looking forward to learning--listening and learning 
from my colleagues and meeting and working with leaders from 
the region to continue to advance more transparent and open 
cooperation between the U.S. and members of the Western 
Hemisphere and I look forward to working specifically on issues 
of energy, trade, diplomatic relations and security during the 
114th Congress.
    Again, I am honored to be part of this subcommittee and I 
can't wait to get to work.
    Thank you, Mr. Chairman. I yield back.
    Mr. Duncan. Thank you. I am taking in order members' 
arrival. So Mr. Yoho from Florida is recognized for 1 minute.
    Mr. Yoho. Thank you, Mr. Chairman, and congratulations on 
chairing this committee. I look forward to it and working with 
you on this.
    I think this is a great first hearing that will let new 
members--new members to the subcommittee like myself really get 
an overview of the Western Hemisphere and the implications in 
the region that it has for our national security and economy.
    You know, I grew up in--I was born in Minnesota but I have 
lived in Florida 52 of my 60 years and it is home to me and I 
have had the pleasure of working as a large animal veterinarian 
in Florida for 30 years, and we deal a lot with the farmers and 
ranchers we have gotten to know and the extension of the 
agricultural sector into the South America mainly.
    And I look forward to bolstering those and I look forward 
to strengthening our relationships in the whole Latin American 
and Western Hemisphere and the security in the region, I think, 
is utmost that we pay attention.
    I have got members in the--family members in the Coast 
Guard and I hear daily of stories of the narco trade, the 
illegal immigration, human trafficking and I look forward to 
bringing some common sense resolutions to that to make our 
nation stronger as we bolster our relationship with those 
countries; and I look forward to hearing from the experts here 
and I know we are going to have a productive 2 years, and thank 
you.
    Mr. Duncan. I thank the gentleman.
    The Chair will recognize the former chairman of the 
Subcommittee on Western Hemisphere, now the chairman of the 
Asia and the Pacific Subcommittee, Mr. Salmon, for an opening 
statement of 1 minute.
    Mr. Salmon. Thank you, Mr. Chairman.
    My top priority is just to do whatever I can to make you 
look good and my second priority is just do whatever the 
gentlewoman from Florida tells me to do.
    The third thing is I really am very, very concerned about a 
phenomena we saw last year that really had strong implications 
in my state with regard to Guatemala and El Salvador and the 
whole Central America problem with unaccompanied minors at the 
border.
    I think we are going to see it again in a very big way, and 
we have never really done anything to resolve it. The House 
worked its will last August and passed legislation which the 
Senate never took up.
    But it hasn't gone away. We don't know exactly why it 
tapered off. A lot of people think it was just weather. But the 
violence in Guatemala, Honduras, El Salvador continues. The 
drug trafficking and the gangs that bolster that drug 
trafficking, the coyotes--all of those things have not gone 
away.
    There are great things happening in the Western 
Hemisphere--great exciting things, and you have noted a lot of 
them. But there are some real challenges too and they are 
showing up right at our door and causing some real serious 
issues within our country and I hope we get a handle on it.
    I hope it is something that we intend to focus some 
attention on, because, as we went to the border of Guatemala 
and Mexico and saw first hand with General Kelly what was going 
on right there in terms of drug trafficking, people 
trafficking, gun trafficking, it hadn't gone away and I really 
hope that we focus some attention and ultimately address it as 
a Congress and try to get it fixed. Thank you.
    Mr. Duncan. I thank the gentleman for his leadership. I am 
just really following up and continuing your great work. So the 
Chair will recognize Mr. Castro from Texas for 1 minute.
    Mr. Castro. Thank you, Chairman. It is an honor to serve on 
this subcommittee. I think the task for us in the years ahead 
is to continue to develop the infrastructures for diplomacy, 
economic development and cooperation within the Western 
Hemisphere.
    There are things that happen in Latin America that if they 
happened in other parts of the world this body, the Congress, 
and the United States would respond much more swiftly and much 
more strongly, and I will use the example that Chairman Salmon 
pointed out.
    We had a subcommittee hearing on all the kids that came 
from Central America. But there was never a full committee 
hearing on that situation. That needs to change in the future. 
We need to attend to this region much better than we have 
before.
    Mr. Duncan. I thank the gentleman.
    Mr. Lowenthal from California is recognized for 1 minute.
    Mr. Lowenthal. Thank you, Chairman Duncan and Ranking 
Member Sires. I want to thank you both for holding this 
important hearing focusing on the Western Hemisphere and its 
relationship to our U.S. interests.
    As a first time member of this subcommittee and as a former 
legislator for southern California and also as a former 
professor at Cal State Long Beach where I had the very good 
fortune of spending a year sabbatical at the University of 
Yucatan, I am really pleased to be focusing much more on our 
relationship with Mexico and Central America and parts of the 
region, especially since so many of the families in my region, 
in my district, are directly impacted by events that occur in 
the region.
    I am here to learn, as the chairman asked me, also what 
would be my focus. As I pointed out, I am an educator. I would 
like to see, with 28 percent poverty, how we work with the 
region in terms of educational opportunities, how--what are the 
successes in education.
    I am also concerned about our collaboration on the energy 
and climate partnership, on clean energy and I would like to 
understand what that means and how that works; and I, too, 
would like to understand more about unaccompanied minors, both 
the causes and potential solutions than what we have and I 
thank you for holding this hearing.
    Mr. Duncan. Thank you, Mr. Lowenthal.
    And the Chair will now recognize the former chairman of the 
full committee and a mentor of mine, Ms. Ros-Lehtinen from 
Florida.
    Ms. Ros-Lehtinen. Well, thank you so much, Mr. Chairman. It 
is a pleasure and a privilege to serve on your subcommittee. I 
think it is important to note that, according to financial 
reports, U.S. producers export three times more to Latin 
America than they do to China.
    Thirteen out of 17 Latin American countries import more 
goods from our country--from the United States than from any 
other country in the world.
    So even those countries with strong anti-American rhetoric 
silently continue to do business with us as sources for trade 
and investment and that is where we need to take a real deep 
look at our region.
    As we have seen with the misguided secret negotiations with 
Cuba, our foreign policy seems to have left democracy and human 
rights as distant priorities. This is an unacceptable premise 
for our country, the greatest democracy in the world.
    Our policies toward our hemisphere must champion democratic 
freedoms and fundamental rights whether it is my native 
homeland of Cuba, Venezuela, Nicaragua, Ecuador, Bolivia, and I 
know, Mr. Chairman, that under your leadership this 
subcommittee will continue to do our investigation about Iran's 
destabilizing role in Latin America; and I know that we will 
look at the murder of Alberto Nisman, the AMIA Jewish Community 
Center prosecutor, and the mystery surrounding his death.
    So thank you, Mr. Chairman. I can't think of anyone who 
could be a better chairman except, of course, Mr. Salmon--both 
equally good.
    Mr. Duncan. Well, nobody could beat Matt Salmon. But 
anyway, thank you, and the last member to be recognized, Ms. 
Kelly from Illinois, for 1 minute.
    Ms. Kelly. Thank you, Mr. Chair. I am both thrilled to be 
on Foreign Affairs and also on this committee. I am very 
interested in learning as much as I can and, also, I want us to 
develop ways we can partner in peace and fair trade that we can 
all benefit from no matter the country.
    This committee was of particular interest because, 
representing Chicago, I have a significant Mexican and Polish 
population. Also, as a Chicago rep with crime pipelines that 
have links to Latin America, I am very concerned about 
transnational crime, drug trafficking and illicit finance. 
Those are both big concerns.
    And, lastly, I am interested in finding ways we can 
continue to find productive and positive ways to build our 
relationship with Cuba and its people.
    Thank you.
    Mr. Duncan. I thank the members, and from what I am hearing 
we are going to have a very active and beneficial time to make 
us all better congressmen and make the committee effective; and 
make the United States a better partner in the region.
    So we can't do that at every committee hearing but so I 
need to say that pursuant to Committee Rule 7 members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record.
    Without objection, the hearing record will remain open for 
5 days to allow statements, questions and extraneous materials 
for the record subject to the length and limitation in the 
rules.
    So now it is a pleasure of mine to introduce our 
distinguished panel today and the first panelist is Dr. Shannon 
O'Neil. Dr. O'Neil is a senior fellow for Latin American 
studies on the Council on Foreign Relations.
    Her expertise includes U.S.-Latin American relations, 
trade, energy and immigration. She also directed CFR's 
independent task force on North America, ``Time for a New 
Focus''--I think there is a copy of the book at your desk--as 
well as an independent task force on ``U.S.-Latin America 
Relations: A New Direction for a New Reality.''
    Dr. O'Neil holds an MA in international relations from Yale 
and a Ph.D. in government from Harvard.
    Our second panelist is Ms. Bonnie Glick. Ms. Glick served 
as senior vice president--serves currently as senior vice 
president for Global Connect Division at Meridian International 
Center.
    Prior to joining Meridian, Ms. Glick served 12 years as a 
U.S. diplomat in the Department of State. She served in the 
U.S. Embassy in Managua, Nicaragua and in the period 
immediately after the electoral defeat of the Sandinistas. It 
is an interesting--I would like to talk with you more about 
that.
    Ms. Glick also holds an MA in international affairs from 
Columbia University, an MBA from the Robert H. Smith School of 
Business at University of Maryland.
    Our third panelist, Dr. Evan Ellis--Dr. Evan Ellis is a 
research professor in Latin American studies and an 
accomplished author. He has given testimony on Chinese 
activities in Latin America to the U.S Congress, and has 
discussed his work regarding China and other external sectors 
in Latin America on various media outlets.
    Dr. Ellis holds a Ph.D. in political science from Purdue 
with a specialization in comparative politics.
    And our last panelist, Mr. Eric Farnsworth--Mr. Farnsworth 
is vice president of the Council of the Americas and Americas 
Society. Mr. Farnsworth began his career in Washington with the 
U.S. Department of State. He also served as senior advisor to 
the White House Special Envoy for the Americas.
    He holds an MBA in international relations from Princeton's 
Woodrow Wilson School and we are glad you guys are here. I have 
enjoyed getting to know Eric and look forward to talking with 
him more.
    So we have got a lighting system. We are going to recognize 
each of the panelists for 5 minutes. That also goes for the 
committee.
    When we get to the question period we are going to adhere 
to the 5-minute rule, and I will try to adhere to that as 
closely as possible due to the essence of time. So if you hear 
a light tapping and not a--then that means wrap it up with a 
sentence.
    I don't want to go to the second part of that. So we would 
like to try to stay on time. So before I recognize you to 
provide your testimony I am going to continue to--I have 
already explained that.
    So after our witnesses testify we will have 5 minutes to 
ask questions and so, Dr. O'Neil, I am going to start with you. 
It is kind of strange how the committee has been set up. 
Usually it runs the other way in recognizing them but we are 
going to start on the right.
    Dr. O'Neil, you are recognized for 5 minutes.

STATEMENT OF SHANNON K. O'NEIL, PH.D., SENIOR FELLOW FOR LATIN 
         AMERICA STUDIES, COUNCIL ON FOREIGN RELATIONS

    Ms. O'Neil. Great. Good morning. So Mr. Chairman, Ranking 
Member and members of the subcommittee, thank you for the 
invitation to testify today and I am grateful for the 
subcommittee's interest on the Council on Foreign Relations' 
Independent Task Force on North America, and I am pleased to 
have the opportunity to discuss it and the strategic importance 
of North America for U.S. interests.
    And if it would be acceptable to the chair, I would like to 
have the entirety of the referenced task force report entered 
into the record.
    Now, home to nearly 500 million people living in three 
vibrant democracies, North America today is an economic global 
powerhouse. At over $20 trillion, the three nations of Canada, 
Mexico, and the United States account for over a quarter of 
global GDP.
    Moreover, North America is increasingly interdependent as 
geography, markets, policies, the choices of millions of 
individuals and the choices of hundreds and thousands of 
companies have transformed it into one of the most integrated 
regions in the world.
    And given these deep and indelible links, a stronger North 
America can only enhance U.S. competitiveness, U.S. security 
and well-being and it can also bolster U.S. influence globally.
    Now, in my time here I want to talk about two opportunities 
in particular that stand out for areas of cooperation and these 
are energy and economic competitiveness.
    Starting with energy--never before have the energy 
prospects of these three nations been so dynamic as they have 
been transformed by new energy finds in the three nations, by 
new technologies and by new rules, particularly in Mexico, that 
are together unleashing an unanticipated potential.
    An increasing energy production so far has brought jobs, it 
has boosted economic growth and it has lowered prices for 
industrial and individual consumers in all three nations.
    Now, as each of these three countries undergo their own 
changes and transformations, energy should become a fundamental 
pillar for the North American partnership. Greater regional 
cooperation and integration will boost economic, geopolitical, 
and environmental benefits for these three nations.
    To truly harness North America's energy promise, the United 
States should work closely with its neighbors to integrate 
North America's energy markets. So this will involve 
significant investment in resources, in cross border 
infrastructure and electricity grids, so physically linking 
North America's energy fields, refineries and markets.
    It will also mean developing regional energy strategies and 
environmental standards, coordinating on issues such as 
regulations, safety procedures, energy efficiency guidelines 
and technologies for lower carbon energy.
    Common efforts like these will better ensure the three 
countries benefit from the potential economic gains while also 
reaching environmental and carbon objectives.
    Now, let me turn to North America's economic potential. 
Now, over the past two decades North America's economic ties 
have deepened dramatically by virtually all measures.
    Today, each of these nations is the others' largest trading 
partners with intra-regional trade of over $1 trillion a year, 
and as important is the changed nature of this trade, 
reflecting the rise of a truly regional production platform.
    So rather than sending each other finished products the 
United States, Mexico and Canada today trade in pieces and 
parts. So this back and forth along assembly lines, between 
plants and between these countries in the making of every car, 
every plane, every flat screen TV or computer it means for 
every item that is imported from Mexico to the United States, 
40 percent of its value on average, was actually made in the 
United States and for Canada the number is 25 percent.
    And it is precisely through this integration of joint 
production of goods that the United States, Canada, and Mexico 
have become more efficient and competitive together than they 
would have been alone.
    And as this new Congress begins its work, made in North 
America should be a foundation of U.S. policy. So this means 
working toward the free unimpeded movement of goods and 
services across North America's common borders.
    This will require reducing non-tariff barriers, revising 
rules of origin, mutually recognizing or harmonizing differing 
regulations, expanding preclearance or other proven programs 
for trusted travellers, and investing in border infrastructure 
necessary to speed trade and travel.
    It also means prioritizing and completing free trade 
agreements with which the United States, Canada, and Mexico are 
all part, specifically today the Trans-Pacific Partnership, and 
it should mean incorporating our North American neighbors and 
other free trade agreements we consider including the Trans-
Atlantic Trade and Investment Partnership, or TTIP, with 
Europe.
    Now, the costs of not engaging our neighbors are even 
higher than they have been in the past. In a world of regional 
blocs, deepening U.S. ties with its economic allies and 
particularly its neighbors will help maintain our national 
competitiveness, and America's dream of energy self-sufficiency 
depends, too, on its neighbors, on linking energy and 
electricity grids to ensure safe, stable and resilient 
supplies.
    The United States is already a global superpower but with 
its neighbors it could extend its reach even further, and so I 
would ask you as policy makers to put North America at the 
forefront of your imaginations and, importantly, on your 
agendas.
    Thank you.
    [The prepared statement of Ms. O'Neil follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Duncan. And the Chair will recognize Ms. Glick for 5 
minutes.

     STATEMENT OF MS. BONNIE GLICK, SENIOR VICE PRESIDENT, 
     GLOBALCONNECT DIVISION, MERIDIAN INTERNATIONAL CENTER

    Ms. Glick. Mr. Chairman, Ranking Member and members of the 
committee, thank you for the invitation to testify today. I am 
here representing Meridian International Center, a Washington, 
DC-based nonprofit that focuses on the promotion of global 
leadership through international engagement.
    I also come in my capacity as a former executive of the IBM 
Corporation and as a former Foreign Service officer. By 
crossing sectors from public to private to nonprofit, I have 
seen the impact that U.S. engagement in the Western Hemisphere 
can have and today I will focus my remarks on the economic 
importance of remaining engaged with our neighbors to the 
south.
    I would like to say that the importance of Latin America is 
best summed up in a Spanish word, intercambio. An intercambio 
is an interchange, kind of a clumsy word in English but quite 
elegant in what it implies.
    We no longer teach or train our neighbors. It is no longer 
a one-way street. The intercambios that exist today are really 
the superhighways of information and knowledge exchange. All 
parties involved benefit and this leads to economic growth.
    Emerging market country strategies have for years focused 
on moving up the value chain in terms of their exports, 
producing higher valued goods and services. Several Latin 
American countries' economies have seen successes that mirror 
the Asian Tigers. I will call these the Latin American Tigres.
    When U.S. companies are looking for countries in which to 
invest, countries where there are good prospects for growth, 
long term return on their investments and strong partnerships, 
it makes sense to look toward Latin America.
    The global economy calls for the diversification of 
investments and successful countries where we have used our 
bilateral government-to-government relationships based mostly 
on foreign assistance and dependency have morphed into 
countries where businesses can have relationships based on 
mutual interests and growth.
    Colombia is an example of U.S. foreign assistance that 
worked. Today, Colombia is a thriving democracy and an example 
of an economic and financial powerhouse in the region. 
Medellin, once the drug capital of the world, is now one of the 
leading financial and industrial centers in Latin America.
    This once profoundly dangerous city is now listed by Forbes 
Magazine as one of the 10 best cities in the world for 
international retirees. Colombia is now a Latin Tigre. Another 
example of its success is in the oil industry. Colombia's oil 
giant, Ecopetrol, is a para statal company that is well managed 
with revenues of nearly $38 billion.
    The current downturn in oil prices has certainly impacted 
Ecopetrol, but its asset base and reserves will allow it to 
weather the economic storm.
    Colombia lets the world know that it is open for business. 
Indeed, in 2014 it rose from spot number 53 to number 34 on the 
World Bank's ease of doing business index.
    Brazil is the biggest player in South America. Its period 
of prosperity when the BRIC was the preeminent force of nature 
in emerging markets began in the late '90s with the government 
decision to privatize some of Brazil's Government-owned 
enterprises. Moving massive and poorly performing industries 
into private hands led to sustained growth of around 5 percent 
per year.
    However, the Brazilian Government has often looked at the 
economic miracle of Brazil as a means to provide expanded, and 
sometimes unaffordable, services to the country's large 
population.
    Brazil has now become a burdensome place to do business, 
and it is near the bottom of the list of the World Bank's ease 
of doing business index in the unenviable 120th spot. But 
international investors, including Americans, will not flee 
from Brazil.
    Brazil has the largest offshore oil discovery on Earth. The 
deepwater offshore exploration and production will continue and 
expand in the decades to come. Brazil's oil industry, with the 
opportunities for investment by American oil companies, means 
that U.S. oil can diversify their holdings and can weather 
global economic storms with less risk.
    This mitigated risk allows those same American companies to 
expand operations and employment very directly in the United 
States and in other operations abroad.
    U.S. equipment manufacturers can generate significant 
sales, in turn boosting our own economy and stimulating job 
creation at home. For many years, Chile held a role as the 
darling among Latin American countries that is slowly being 
supplanted by Columbia.
    Chile remains a financial and mining industry giant in the 
region, but the newly returned presidency of Michelle Bachelet 
has many an industry seeing the return of more socialist 
tendencies that are less business friendly. The new tax regime 
will be the first test of the global business community's 
patience with Chile.
    Today, I would like to discuss briefly Mexico in the 
context of its multilateral role in the newly formed trade bloc 
known as the Pacific Alliance.
    Mexico wields a tremendous amount of influence due in no 
small part to its proximity to the world's economic golden 
goose--us. Mexico currently sits at spot number 39 on the World 
Bank's ease of doing business index and Mexico is the lynchpin 
country forming the Pacific Alliance, as mentioned by the 
chairman--a free trade area comprised of Mexico, Colombia, 
Peru, and Chile.
    It was formed in 2013 as a counterbalance to the Mercosur 
trade bloc. The Pacific Alliance counterweight, though, packs 
quite a punch. In its first year, the Pacific Alliance's trade 
with external partners outpaced Mercosur's, and this pattern 
appears likely to continue.
    This newly formed trade bloc of Latin American Tigres shows 
great promise in the global economy with average annual growth 
of 4.2 percent. We should not relax, however, and think that 
U.S. companies can sit back and reap the rewards from 
relationships that are driven by geography.
    The name of the emerging trade bloc gives clues as to its 
orientation. The Pacific Alliance means a pivot to Asia. 
Indeed, the superhighway I referenced earlier is every bit a 
present day reality.
    American businesses must fasten their seatbelts for the 
ride. Businesses should remain engaged so as not to lose market 
share to China and the Asian Tigers. Engagement, investment, 
collaboration, partnership, and active participation all ensure 
that our businesses will grow, will continue to maintain a 
footprint in the most stable region of the world outside North 
America, and will create jobs and investment opportunities for 
Americans at home and abroad.
    I thank you very much for your time today.
    [The prepared statement of Ms. Glick follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Duncan. Thank you.
    I am going to ask the witnesses try and stay on time, if 
you can. Dr. Ellis, you are recognized for 5 minutes. Thank 
you.

             STATEMENT OF EVAN ELLIS, PH.D., AUTHOR

    Mr. Ellis. Thank you. Chairman Duncan, Ranking Member 
Sires, distinguished committee members, thank you for the 
opportunity to share my analysis with you today. I will 
summarize my written remarks for the committee.
    I wish to highlight the four challenges in Latin America 
and the Caribbean--organized crime, Russia, Islamic radicalism, 
and China.
    The passage of drugs, immigrants, and illicit goods through 
the region to the United States continues to fuel criminal 
organizations, deepening the crisis violence and the lack of 
opportunity in those societies.
    El Salvador's facilitation of a truce between Mara 
Salvatrucha and Barrio 18 in 2012 and the Guatemalan President 
Otto Perez Molina's appeal to legalize drugs to reduce the 
violence and criminality in his country shows just how 
desperate the situation has become.
    Trans-Pacific crime also merits more attention. Recent 
examples include the sourcing of precursor chemicals by the 
Sinaloa cartel from Chinese mafias, metal ore shipments to 
China from cartel-controlled parts of Michoacan and the use of 
Chinese banks to launder money by the Brazilian gang First 
Capital Command.
    Russia--Russia is the external actor which has most openly 
challenged the United States in Latin America. Since 2008, it 
has repeatedly deployed military aircraft, warships, and 
submarines close to the United States including three port 
calls in Havana by the signals intelligence ship Viktor Leonov 
most recently on January 20th, the day before our U.S. 
Government team headed toward Havana to meet with Cuban 
officials.
    Russia's defense minister, Sergei Shoigu, said last 
February that his country seeks to resupply and maintain its 
warships in Nicaragua, Cuba, and Venezuela; to operate its 
military aircraft from their airfields, and possibly to reopen 
the Cold War era surveillance facility at Lourdes, Cuba.
    Last November, Minister Shoigu further said that Russia 
would send long-range bombers to fly patrols near the U.S. 
including in the Caribbean and the Gulf of Mexico.
    Iran--Iran has used Embassy personnel to recruit terrorists 
in the region including those by Mohsen Rabbani, who developed 
networks of operatives throughout region such as the Guyanese 
emir and Islamic radical Abdul Kadir sentenced in 2010 for the 
plot to attack the JFK Airport.
    Latin America is also a source of terrorist financing 
including the narco trafficker Chekry Harb and the money 
launderer Ayman Joumaa, who channeled part of their drug 
earnings to Hezbollah and other terrorist organizations.
    Terrorists also conduct operations in the region. Just 3 
months ago, for example, Hezbollah operative Muamad Amadar was 
arrested near Lima, Peru, stockpiling explosives for use in 
that country.
    The recent suspicious death of Argentine special 
prosecutor, Alberto Nisman, the day before his testimony to the 
Argentine Congress does raise disturbing questions about the 
current Argentine Government's relationship with Iran.
    China--the PRC has most significantly impacted the region's 
security environment although not openly challenging the United 
States. Of the more than $100 billion it has loaned to the 
region since 2005, three-quarters of that have gone to the ALBA 
regimes in Argentina, helping to keep governments like 
Venezuela's solvent so that they could continue to operate as 
bases for criminals and as entry points for other actors who 
would do us harm.
    China has also chosen CELAC, which excludes the United 
States and Canada, rather than the Organization of American 
States as its preferred vehicle for building its relationships 
with the region.
    The PRC has expanded its military activities in Latin 
America, undermining U.S. efforts to remain the security 
partner of choice. In October 2013, while Washington was 
distracted by the budget crisis, a PLA naval flotilla for the 
first time conducted combat exercises with our allies in Chile 
as well as with Brazil.
    Chinese companies sell military aircraft, helicopters, 
satellites, trucks and armored vehicles to both U.S. partners 
and its adversaries in the region and possibly sales to 
Argentina of the FC-1 fighter, the P-18 Corvette, the X-11 
helicopter and the V-1 armored personnel carrier.
    My recommendations--there is a need to think more 
strategically about the contribution of Latin America and the 
Caribbean to U.S. national security and prosperity; to see it 
as more than simply a source of drugs and immigrants that needs 
to be controlled.
    The U.S. rapprochement with Cuba and the April Summit of 
the Americas provide an opportunity to reinvigorate the OAS as 
the premier multilateral institution for the Americas. The U.S. 
can also facilitate engagements by other actors whose 
priorities are consistent with our objectives in the region 
including India, Japan, and South Korea.
    I also recommend greater attention to how in a major 
conflict involving the United States elsewhere in the world our 
adversaries might use their commercial position and assets in 
the region to shape the outcome by impacting U.S. coalition 
formation, deployments, sustainment, and political will.
    Finally, we need to be clear to ourselves where we draw the 
line regarding activities by extra hemisphere actors in the 
region that potentially threaten our national security and, 
further, to make those lines known to them in less ambiguous 
terms than has occurred to date.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Ellis follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Duncan. Thank you. And the Chair will recognize Mr. 
Farnsworth for 5 minutes.

 STATEMENT OF MR. ERIC FARNSWORTH, VICE PRESIDENT, COUNCIL OF 
               THE AMERICAS AND AMERICAS SOCIETY

    Mr. Farnsworth. Thank you very much, Mr. Chairman. Good 
morning. Congratulations to you for your chairmanship.
    Thank you, Mr. Salmon, for his previous leadership and let 
me also thank Mr. Sires for your continued interest in these 
issues. To Mr. Meeks, it is wonderful to have you back, sir. We 
are looking forward to working with all of you in a bipartisan 
manner.
    Mr. Chairman and Mr. Ranking Member, I would submit to you 
today that strategic U.S. interests in the Western Hemisphere 
are as profound as our interests almost anywhere else on the 
globe.
    The region is directly connected to our own day to day 
well-being from economic prosperity and growth to national and 
energy security and promotion of our most fundamental values.
    Let us be clear eyed about this. Our most immediate 
neighbors have the greatest impact on our strategic interests. 
It is significant and consequential that we have a northern 
neighbor, Canada, which is both our top trade partner and top 
energy supplier and which is stalwart in working with us to 
address the toughest global challenges.
    At the same time, North America, including Mexico, our 
second largest export market and also our third largest energy 
supplier, is becoming a fully integrated production platform 
with tightly knit supply chains and ever deepening commercial 
ties.
    As China and other nations have emerged to challenge the 
preexisting global economic order, the ties that bind us within 
North America have created economic efficiencies, built 
competitiveness and directly contributed to the economic growth 
our citizens both desire and deserve.
    The challenges that Mexico continues to face on the 
security side are also our concern because they undermine the 
rule of law, vacuum up resources and have the potential to 
spill over onto us. So it is therefore critically important 
that we get relations with our two most immediate neighbors 
right.
    Beyond North America, it is profoundly in the self-interest 
of the United States to see a hemisphere where every nation is, 
in Vice President Biden's words, middle class, democratic, and 
secure.
    These are precisely the characteristics that define our 
best, longest lasting, and most effective global partnerships, 
and it is also why we believe so strongly that trade and 
investment expansion in the Western Hemisphere is a strategic 
issue.
    In the first instance, trade and investment supports our 
own economic strength and security, as the President noted 
during his State of the Union Address in January, and we heard 
a number of statistics from Congresswoman Ros-Lehtinen so I 
won't repeat that in terms of the importance of the Western 
Hemisphere to the U.S. economy.
    At the same time, trade and investment also support efforts 
to build and strengthen middle classes abroad, breaking down 
traditionally restrictive patterns of economic organization and 
offering greater opportunities to grow and innovate, supported 
by the rule of law.
    Formal trade agreements reinforce these activities while 
linking our economies closer together on a more permanent basis 
consistent with U.S. values. We can do more and we should, and 
I have several specific ideas along these lines in my written 
testimony.
    Nonetheless, while regional economic progress over the past 
decade is noteworthy, continued success is not guaranteed. The 
dramatic fall in oil prices is already straining regional 
economies and reducing the growth on which continued poverty 
reduction depends.
    Hydrocarbons are plentiful across the Western Hemisphere 
and, Mr. Chairman, you made that point very eloquently already, 
directly supporting U.S. energy security but petroleum 
dependent nations like Venezuela and its client states in the 
Caribbean Basin, among others, are now in deep economic 
trouble, having squandered immense wealth generated during the 
past decade of high energy prices.
    And there is perhaps nothing more motivating for dramatic, 
even radical, political change that fosters populism or 
potentially worse than fear and prospects for economic 
stagnation or retrenchment and one needs to look no further 
than the recent elections in Greece to prove that particular 
point.
    It is therefore also in our strategic interest to promote 
broad based economic growth in Central America and the 
Caribbean, and there is a significant role here for Congress.
    As we were starkly reminded by the summer--by the summer of 
2014 crisis of unaccompanied minors on our southwestern border, 
most of whom came from Central America, families will take 
desperate measures when their livelihoods are at stake and 
their personal security and the rule of law cannot be 
guaranteed. These issues are interconnected, significantly 
exacerbated if not caused by the illegal drug trade and gang 
culture in a number of countries.
    That is one reason why it is so important that we have full 
economic and security cooperation with both of the drug transit 
and drug producing nations including across the full range of 
cyber crime law enforcement and why it is so harmful when such 
cooperation breaks down, as we have seen with regard to 
Venezuela.
    Beyond the pressing need to improve dramatically the 
personal security profile in parts of the region, however, the 
Western Hemisphere is, thankfully, a region largely at peace 
with only last vestiges of guerrilla conflict ongoing in 
Colombia.
    With that nation actively involved in the peace process, 
which the United States has done so much to enable through our 
active policy and financial support for the Colombian people on 
a bipartisan basis, we must now begin to think in terms of 
supporting the peace once an agreement is struck.
    And finally, Mr. Chairman and Mr. Ranking Member, if I 
could offer just a very brief word about Latin America and the 
Caribbean in the overall global environment.
    No longer can we assume that we can engage solely on our 
own terms. We must increasingly contend for the region in the 
manner that we traditionally have not had to do.
    China's growing presence and long-term commitment is change 
in the economic and political dynamic. At the same time, 
Brazil's rise has been universally and appropriately praised 
but with its interest in developing an increasing global 
profile, coupled with an increased capacity to realize greater 
ambitions, we must also recognize the Brazilian pursuit of its 
own foreign policy interests does not always coincide with our 
preferences.
    That is okay. Competition is good in both politics and 
business. But it does mean that we have to engage meaningfully 
with the region on a sustained and creative basis, finding ways 
to promote our interests effectively by working closely in 
partnership with others wherever we can while recognizing the 
rapidly changing nature of hemispheric relations.
    Thank you again for the opportunity to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Farnsworth follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Mr. Duncan. I want to thank all the witnesses for those 
great opening testimonies. You know, sitting here listening I 
am thinking we could talk about U.S. policy in Cuba, Venezuela 
and their energy sector and economic problems, unaccompanied 
children, upcoming elections in the region, Canada and Keystone 
Pipeline, Mexico reforms in the energy sector and other reforms 
or the 43 children and their death.
    We could talk about Argentina and Alberto Nisman. We could 
talk about Iran and the Iranian threat and activity in the 
hemisphere, energy in the region, the opportunities in the 
Caribbean and energy as a whole, TPP and trade, trade and the 
Panama Canal, the successes in Colombia, and those were just 
the things I wrote down in the last 30 seconds of your 
statement.
    There is a lot of different areas we could talk about and 
so let us get started. I recognize myself for 5 minutes and 
then I will take it to the ranking member and then in order.
    One thing that concerns me and a lot of folks is the visa 
waiver program and what we see with terrorism acts in Paris and 
what the visa waiver program may mean going forward to safety 
and security in the United States.
    And so, Ms. O'Neil, you talked about--a little bit about 
preclearance, which I think preclearance and visa waiver are 
two different issues but they are very similar.
    One year ago this month, Chile was designated the 38th 
participant in the visa waiver program and Brazil and Uruguay 
have indicated an interest in that program, and so when I think 
about the Iranian threat in the Western Hemisphere, the visa 
waiver program and all of these things, I would like to ask you 
to delve into that a little bit more.
    In a case such as these do you believe that it will take--
what will it take for these countries--Uruguay and Brazil--to 
make necessary changes that you talked about in your statement 
in order to adapt the visa waiver program and what are your 
thoughts on that, just real quickly, and I am going to move on?
    Ms. O'Neil. Thank you. I mean, I think the preclearance 
type program--trusted traveller type programs of which visa 
waivers are part--can be a win-win situation and, one, because 
it allows us to process people faster but it also allows us to 
know who is coming and know a lot more about them than in 
traditional types of visa programs where you show up.
    And so the electronic--you know, submitting electronic 
information, having the information well beyond that person 
travels anywhere near the U.S. borders actually can be quite 
useful.
    Also, for countries to participate in these, as we have 
seen with Mexico and Canada which have much deeper and much 
broader types of programs because of the shared geographic 
borders, but in other countries that participate they too have 
a much better sense because of the types of standards they have 
to reach to participate with us.
    They too have much more information about who is in their 
country, who is--you know, should be there, who should not, 
whether citizens or visitors or the like.
    So I think in that sense in trying to make the whole 
region, the whole hemisphere more secure, in many ways visa 
waiver programs can be very helpful, because it encourages, if 
not forces, those countries to come up to some standards in 
terms of the information that they have about their own people 
residing in their country and those who might then apply to 
come and visit us.
    Mr. Duncan. Right. Well, thank you for that and I will just 
for the record talk about Paraguay and a lot of the folks that 
come to Paraguay into that tri-border region on falsified 
documents and close proximity to Brazil and Uruguay really 
concerns me, and so thank you for that.
    I just want to ask Dr. Ellis, did you read the Department 
of State's report on the Iranian threat in Western Hemisphere 
as required by Public Law 112-220?
    Mr. Ellis. I have read it.
    Mr. Duncan. All five pages of it? So you talked a little 
bit about the Iranian threat. Do you think the State Department 
did the Public Law service in what they did?
    I personally don't think they went far enough in what the 
law required and the intent. What are your thoughts on that?
    Mr. Ellis. Thank you very much. I think it is a wonderful 
question, sir. To me, the State Department was correct on a 
technicality, but missed some of the bigger issues. I think, 
certainly, under President Rouhani Iran has lowered its profile 
in the region.
    It is unclear whether at the level--at the classified level 
whether things such as recruitment of radicals in Iran and Qom 
and other places and the madrassas continues or what the Quds 
Forces continue to do in the region.
    But beyond what Iran is diplomatically doing previously 
under Ahmadinejad, what concerns me also is a continuing role 
through Iran and in others of organizations such as Hezbollah 
which, clearly, continue to finance activities often in 
combination with terrorist organizations, and even if Iran 
itself has lowered its profile, I think the activities of 
Islamic radicals continue to be a significant threat that we 
need to keep our eye on.
    Mr. Duncan. Thank you. Something I will focus on is the 
Iranian threat. In the remaining time, I want talk to Ms. Glick 
about Colombia, the successes that we have seen in Colombia 
with the partnership, with the training there, helo pilots and 
the helicopter assistance the U.S. has given in pushing back 
the FARC and pushing back the narco trafficking.
    How can we take that Colombia model, in your opinion, and 
apply it to maybe other countries in the region? Is there 
opportunity in Nicaragua and Honduras, in your experience 
there? How do you see that Colombia model maybe being 
transported to other areas?
    Ms. Glick. I think the key with Colombia is that we had an 
actively engaged partner in President Uribe in the time that we 
were negotiating and working with Plan Colombia. The United 
States invested, and I use that term deliberately, invested 
nearly $1 billion in Plan Colombia and we see a return on the 
investment.
    President Uribe, President Santos--they are able to engage 
with law enforcement as well as coordinating across the 
military and with civil society as well. There is volume.
    Mr. Duncan. You mentioned that. Let me ask you, do you 
think the judicial side of it--the civil society and judicial 
component of enforcement of rule of law--I personally think 
that is a vital aspect whether it is Mexico or whether it is 
Guatemala or whether it is other countries. So----
    Ms. Glick. That is entirely correct, sir, and to have that 
as a partner rather than just as an imposition from the United 
States, rather than us wagging our fingers and saying you have 
to do this, the Colombians actually did it and they took it on 
themselves to take back their country.
    So if we can get that similar type of engagement in Central 
America with governments there, heck yeah, we can move forward 
and we can have successes like we have in Colombia.
    Mr. Duncan. Are you familiar with what the Colombians are 
doing to train the law enforcement and judiciary folks from the 
Latin American countries, whether it is Guatemala, Honduras, 
Nicaragua? From what I understand, and I have seen some of it, 
some of the training, can you touch base on that?
    Ms. Glick. I think, sir, I will have to get back to you 
with a little bit more detail. But the region looks at Colombia 
as a success and it is wonderful to then be able to see the 
region taking care of the region and that is what Colombia is 
coming out as a leader and doing.
    Mr. Duncan. I am going to highlight successes. Dr. O'Neil, 
are you familiar with what the Colombians are doing in that 
regard?
    Ms. O'Neil. I am familiar with that, and in particular some 
of the work that they have done in Mexico. General Naranjo came 
up and was an advisor to Pena Nieto who had been the head of 
the national police in Colombia before he just went back 
recently.
    I think what is interesting when you think about models of 
Colombia for other places, particularly places like Mexico 
where all of us should have real concerns about, they have done 
the incredibly important economic reforms but they have yet to 
really institute a democratic rule of law and strengthen it 
throughout the country.
    One of the big lessons from Colombia, to me, which you just 
touched on, is that they also--their society chimed in and 
participated with Uribe and so Uribe, along with the money that 
we provided and the help, also instituted a wealth tax and that 
money went just for security and to two things.
    One, it gave them resources to fight the threats that they 
had, but it was also done in a very open and transparent way so 
there was not corruption involved.
    That money didn't go in to the black hole of government, 
and so that also helped Colombia begin to clean up its 
institutions, which it has done. And so as Mexico or others, as 
we work with them, there are many things we can do, the 
Colombians can do as well.
    But they also need to bring along their society and have 
people invest in their own country and the public good of 
democratic rule of law.
    Mr. Duncan. All right. Well, thank you so much. My time is 
up. I will recognize the ranking member for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Farnsworth, you know, as the price of oil declines it 
has taken a significant toll on other countries, especially in 
Venezuela. The Venezuelan people are suffering. Obviously, they 
have been suffering for a long time, shortages. Of course, 
President Maduro now blames Vice President Biden for all the 
troubles that he is having.
    Are we going to see mass protests? Are we--do you think he 
survives this? I mean, I have friends in Venezuela I talk to 
all the time and they can't even get sanitary paper.
    Mr. Farnsworth. Well, thank you, sir, for the question. I 
think it is a critically important, one, not just for the 
Venezuelan people, but also for the region as a whole and the 
truth of the matter is nobody really knows.
    That is certainly one thing that is being discussed 
actively at senior levels of councils all across the 
hemisphere. I would simply say that the situation has gotten 
dramatically worse, as you have said, since the death of Hugo 
Chavez.
    President Maduro has for a number of reasons proven 
incapable to change the course of Venezuela economically. 
Certainly, the price of energy has contributed directly to 
that, but that is not the only reason why Venezuela is in 
trouble.
    I would hesitate to sketch out what is going to happen and 
I think Yogi Berra had the great quote, ``I don't want to make 
predictions about the future,'' but the fact of the matter is 
this is a very serious issue and it is an issue that I would 
contend isn't just for the United States.
    I would like to see a very active role, for example, 
countries like Brazil, countries like Colombia, countries like 
Mexico, other regional countries to really take a leadership 
position here. At the recent meeting last week of the CELAC 
countries, for example, this did not seem to be a priority.
    At the Summit of the Americas in April in Panama, it could 
be a priority, because ultimately if this goes from bad to 
worse or worse to worst, we are going to see a humanitarian 
crisis and I think that it is in nobody's interest, clearly, 
not the Venezuelan people.
    Mr. Sires. And I have read reports where supposedly Cuba 
has over 30,000 people in Venezuela and they are basically 
propping up the army and security.
    I was just wondering, with all that and the declining of 
oil prices and all these Caribbean countries depending on 
Venezuela for petroleum, where do these countries go now if 
something happens there?
    Mr. Farnsworth. Well, let me--if I can just follow up with 
that and then just a couple comments. But I think this was 
precisely the reason why the Vice President recently called 
together and then they met later with all, the leaders of the 
Caribbean Basin, to talk about energy security in the Caribbean 
Basin.
    There are a number of things we can do on clean energy, for 
example, but one of the things I would like to see would be a 
much more aggressive use of natural gas exports into the 
Caribbean Basin.
    It is a cleaner energy. It is plentiful in terms of the 
United States, and it is an energy source that could be 
employed in the Caribbean Basin with some improvements in terms 
of infrastructure, transportation, what have you.
    But we have not, since the first Caribbean Basin initiative 
in the early 1980s, really seen the Caribbean Basin in a 
strategic way and I think we have the opportunity now, 
certainly, because of the changes that have happened 
exogenously through the energy markets globally, we have the 
opportunity to change the way we look at the Caribbean Basin 
including Central America into a more strategic way with energy 
as an important tool that really undergirds that new approach.
    Trade, energy, people to people, tourism, I mean, these are 
all issues that I think will go a very long way sort of to 
trying to address the question of where do these countries, 
which are in very difficult conditions financially, where do 
they go next and I think we can be an obvious answer to that.
    Mr. Sires. Dr. O'Neil?
    Ms. O'Neil. Let me just add one brief comment. One is that 
the cost of the end of subsidized oil is somewhat less, given 
the fallen oil prices.
    So if these countries are buying on world markets it is 
much less than it would have been in the past. But I do think 
this is an area for North America, and as our production--
Canada, United States and hopefully Mexico--with the changing 
rules, as our production of gas, of oil, of other energies 
increases that looking at the region, looking at stability and 
resiliency and particularly where the Caribbean fits in, I 
think this is an area where we can work with our neighbors to 
provide a much more secure local geography including them.
    Mr. Ellis. I just want to add two quick comments. One is 
that there are--not all of the nations in the Caribbean are 
particularly happy with the prospect of increased U.S. gas 
exports, specifically Trinidad and Tobago, and also while it 
does not always involve explicitly energy exports, China has 
stepped up in a major way offering credits to the region as we 
saw at the recent China CELAC conference in Beijing, and in 
many ways although energy dependence and worries about 
Venezuela plays favorably to the United States, as we saw from 
our recent initiative, it also helps to push those nations 
farther into the hands of China with respect to China's 
potential aid to them.
    Mr. Sires. You know, a few years ago--I go to Colombia 
often and a few years ago I had the opportunity to have dinner 
with one of the presidents of the university, and he made a 
statement to me.
    He says that the second most foreign language studied in 
Colombia is Mandarin. Is that accurate? I assume it is. He told 
me but----
    Mr. Ellis. I suppose it depends on whether it is a public 
or private university. There definitely is a significant 
increase in Mandarin language studies.
    A few years ago, to the extent that there was any knowledge 
in Colombia of Asia, it was primarily Japan. But we have 
certainly seen in some of the most prestigious universities, at 
Universidad Externado, Universidad de los Andes and others, 
there is an increase. But it is still a very marginal language.
    Mr. Sires. One last question. Of the report of 30,000 
Cubans in Venezuela, do you think that is accurate?
    Mr. Ellis. It very well may be if you combine the doctors 
and medical trainers and others and, of course, the reports of 
significant penetration of the Venezuelan intelligence 
services.
    Mr. Sires. Thank you. Thank you, Mr. Chairman.
    Mr. Duncan. Ms. Ros-Lehtinen from Florida, 5 minutes.
    Ms. Ros-Lehtinen. I don't want to jump ahead of anybody 
here because I came kind of last.
    Mr. Duncan. Actually, you are next on the list.
    Ms. Ros-Lehtinen. All right. I like it.
    Mr. Duncan. I believe so.
    Ms. Ros-Lehtinen. Well, then thank you so much. Mr. 
Chairman, as we look around the region, as these wonderful 
panelists have pointed out, what we see is deeply troubling.
    Democracy has been slowly eroding in the countries in the 
region by the hands of elected tyrants who use populist 
promises of reform and change and then they twist their systems 
into convenient arrangements where they retain the final word.
    And one needs no further proof to see how countries are 
following this undemocratic principles and have changed their 
constitutions to fit their whims like Venezuela, Bolivia, 
Ecuador, Nicaragua, and leaders of these countries do not 
believe in the rule of law, separation of powers, 
constitutional order, free and fair elections, an impartial 
judicial system.
    We have seen how these leftist experiments have led many 
countries to curtail basic freedoms. These illegitimate 
institutions are often utilized for the financial advantage of 
members of their own regime to illicitly make money off the 
backs of their own suffering people.
    And corruption is one of the greatest problems facing the 
region at this point. An economy tainted with corruption cannot 
sustain an environment necessary to create the conditions for 
greater economic development.
    Venezuela is a good example of this. It is a sham of a 
country, and it is in great deal of corruption going on there. 
You see the store shelves literally empty yet Maduro goes on 
all of these fancy trips.
    They have archaic systems like artificial currency controls 
that are exploited by the connected elites and denied to the 
private sector.
    Many surrounding the regime have made themselves rich at 
the expense of the average Venezuelan, giving rise to the 
phenomenon of a self-professing socialist who display a great 
preference for owning luxury homes and luxury vehicles.
    And just recently Maduro arrested Venezuelans for the gall 
of having them wait in line for food, and has gone so far as 
arresting pharmaceutical executives and blaming them for the 
medical shortages in the country.
    In reality, as we know, Maduro has no one to blame but 
himself, and these are corrupt practices that are reprehensible 
and cannot but hurt the welfare of the people. Without a doubt, 
they are contributing factors to the near state of collapse 
that we see in Venezuela's economy.
    And against corrupt abuses of this sort the U.S. must 
always be vigilant and its goal--our goal should always be 
clear to support and defend those who fight to expose and fight 
to end corruption.
    So I ask the panelists how can the United States help 
tackle institutional corruption in our own hemisphere. Is it 
possible to use the economic influence of our great country in 
the hemisphere in order to channel those countries into real 
and substantive democratic reforms?
    And is organized crime and a plummeting economy directed by 
Venezuela a security risk for the entire hemisphere, 
specifically for Caribbean countries? And I will leave it to 
anyone who would like to testify. Dr. Ellis, I think you were 
going to testify.
    Mr. Ellis. Thank you--a wonderful question. For me, 
actually corruption is one of the centers of gravity for 
attacking the real malaise that is going on across the Americas 
right now.
    If I could quickly make another observation--that as was 
rightfully pointed out, Venezuela not only is a tragedy for 
some people, it is also a tragedy for the rest of the region.
    We can talk, for example, about Leamsy Salazar who recently 
came as cooperating with U.S. authorities and has made the 
claim that the current head of the Venezuelan Parliament, 
Diosdado Cabello, is actually the head of the largest narco 
trafficking organization, Cartel de los Soles.
    Essentially, the record amounts of cocaine that we are 
seeing coming through the Caribbean as well as destabilization 
of the Columbian borderlands, other places like that, Venezuela 
is not simply a problem for its own people.
    But with respect to corruption itself, there are in part 
technical solutions that our own engagement through State and 
DoD can support. There are some interesting things with respect 
to both institutionalization of things like lie detector tests 
but also institutional support.
    You had a case in Honduras not too long ago where a 
significant portion of the police force was identified as being 
corrupted and none of them were fired. So I think it is a 
combination of diplomatic pressure and others.
    But also I think a holistic whole of government solution is 
critical, because corruption is important to reestablishing the 
connection between the citizens and the government. Alvaro 
Uribe was mentioned before and to me part of the magic of what 
the success of Colombia is, and our Mexican allies hate when we 
gringos talk to them about the lessons of Colombia.
    But to me part of what was the systematic concept, the idea 
that you have to reestablish the faith of the government in its 
people and with that you get intelligence and investment and 
everything else.
    And so as I look at some of our plans, one of the things 
that I think is very important is that we not just add together 
individual programs but that we think about how are we going, 
little by little, to fight this systematically. Thank you.
    Ms. Ros-Lehtinen. Thank you so much and I regret that I am 
out of time. Thank you , Mr. Chairman. Thank you, Dr. Ellis.
    Mr. Duncan. Thank you, and, you know, with the Summit of 
the Americas coming up it is important to think about these 
issues and hopefully we can lead a congressional delegation 
there.
    The next gentleman that I am going to recognize has spent a 
lot of time in Latin America developing relationships. I saw 
that first hand on a Codel Royce back in November. So, Mr. 
Meeks, you are recognized for 5 minutes.
    Mr. Meeks. Thank you, Mr. Chairman, and, you know, we 
looked at the challenges and I guess the--there is a lot of 
progress in the region also and you have nations like Brazil 
and Chile and Colombia and Uruguay and they are not just 
keeping economic gains at home.
    In fact, what I think is significant that they are sharing 
them in the form of now they are giving foreign aid themselves 
to some other countries, and democracies like Peru and Panama 
that have stood the test of time on making tremendous progress 
against unrelenting inequality, and they are growing the middle 
class and poverty is starting to reduce in those areas.
    And just a few days ago, Prime Minister Portia Simpson-
Miller of Jamaica spoke here at the House about the enduring 
advancement in her nation and I am sure that there are many 
other CARICOM nations that are moving forward there.
    And then, you know, but I want to ask another quick 
question. I think that, Mr. Farnsworth, looking at the Council 
of the Americas, I don't know, you all had something--you were 
either talking to somebody I need to talk to but when I looked 
at your latest issue where you talk about Cuba and Colombia or 
political change and peace finally at hand you must have known 
something that we didn't know.
    This was in advance of some of the announcements that have 
come out and you talk about in there also though, which I want 
to ask a quick question about, which has been something that I 
have worked on a lot in Colombia and that is the plight of 
African Colombians because they are still in the middle as, you 
know, with negotiating peace they are still in the middle of 
the FARC battle and violence is happening in that area, et 
cetera.
    So given what is going on all over the place, could you 
basically just give us a quick--and there is a good article in 
this issue, by the way, on the plight of African Colombians in 
the middle of this war zone still continuing?
    Mr. Farnsworth. Well, Mr. Meeks, thanks for the opportunity 
and thank you for the plug for our magazine. We appreciate it 
very much.
    You are really truly the expert on these issues so I 
hesitate to try even to respond to your question, but simply to 
say that these are not only critically important issues but 
they are issues that need to be addressed seriously because 
they stem from history, they stem from culture but they also 
stem from the idea of economic exclusion and when you--when you 
have societies that don't fully value every person in society 
be it Afro-Colombians, be in the indigenous population, being 
folks with physical disabilities, what have you, this is 
critically important for the long-term development of the 
region as a prosperous middle class region that I think we all 
seek.
    You cannot pursue the same type of economic model across 
the region that has traditionally been pursued, which is to say 
that a certain smaller number of elites have access to power, 
have access to the levers of the economy, have access to the 
judicial system and can advance themselves and their families 
whereas the broader majority of people don't have the same 
access.
    And that is what we have seen in some way as driving these 
changes that we have seen across the Western Hemisphere over 
the last 10 years or so, which is to say as democracy itself 
has become much more institutionalized, and that is a very good 
thing. You now have traditionally marginalized populations, 
which have access to political power and have been voting into 
power people, who want to make sure that the benefits of the 
modern state accrue to the broader population.
    That is a very good thing, in my judgment. Having said 
that, that does bring political changes and sometimes there are 
leaders who take a mandate and go too far with it, as we have 
seen from some of the countries that have already been 
mentioned.
    In the case of Colombia, however, I think it is accurate to 
say that the Colombian Government is aware of the issue, 
recognizes that more needs to be done, recognizes fundamentally 
that peace has to come to the region for all of Colombia, but 
also that you can't just then bring peace and say okay, our job 
is done--that you then have to proactively work with the 
affected communities in terms of economic development, in terms 
of social inclusion and all the things that we might take for 
granted here in the United States.
    Mr. Meeks. Thank you, Mr. Farnsworth. Let me ask Dr. O'Neil 
a quick question because I agree with you. I am a big supporter 
of TPP and I think that it will go a long way.
    I believe that the groups that I am looking for like 
African Colombian and others benefit. In fact, when you look at 
Peru as they reduce their poverty some of it is because of the 
economic growth that they were able to gain as a result of our 
trade agreement with them.
    But, now, as we move toward TPP we know that--my question 
to you would be is how would TPP affect the U.S. trade 
relationships with other--with our existing partners like 
Colombia?
    Is it--will it also open the opportunity to more 
negotiation, maybe going back to talk about trade with the 
Americas--that when I first arrived at Congress we were talking 
about trade with the Americas, all of the, you know, countries 
in Latin America and in South America?
    Ms. O'Neil. Well, many of our partners within the Western 
Hemisphere are included in the TPP negotiations. Colombia is 
not yet, as you well know, but would very much like to be 
included.
    So I think setting up this platform there is then an 
opening for countries like Colombia who would want to come in 
and accept what is--what has been negotiated and join this and 
one of the real benefits is as we look at world trade over the 
last 30 years it has changed in the way it is done in almost 
every country.
    We are not sending finished goods. We are sending--the 
majority of things are pieces and parts that are moving back 
and forth. And so in that free trade agreements are 
increasingly important in the Western Hemisphere, because it 
allows this comparative advantage that many countries have. It 
allows us to work together to create competitive products that 
can be sent wherever they are around the world.
    So I think these types of agreements, TPP, are incredibly 
important for actually bringing benefits and particularly the 
value added side that Ms. Glick was talking about. That is the 
future for us in the United States but also for these 
countries, for these middle classes for what we hope for them 
and we hope to work together with. And so there I do agree with 
you.
    I think these trade agreements are vital that we do that, 
and that once it is decided between the current negotiating 
partners that we open it up to those that want to join and some 
will not want to join, as we well know, but others will and so 
there is an open platform for them to join with us in this 
increasingly regional but global agreement.
    Mr. Meeks. Thank you.
    Mr. Duncan. Thank you. The gentleman's time has expired and 
now the Chair will recognize the newest member of the committee 
on the Republican side, Mr. Emmer, from Minnesota, for 5 
minutes.
    Mr. Emmer. New Minnesota. Thank you, Mr. Chair, and Dr. 
O'Neil, if I could take you back. In your written testimony you 
advocate for energy to ``become a fundamental pillar of North 
America's new partnership.''
    If you could give a little bit more detail how should 
Canada, Mexico, and the U.S. work to deepen our trilateral 
relationship on energy and if you wouldn't mind since in 
reference to an earlier question--I don't remember who asked it 
but we were talking about the Caribbean Basin, maybe expand it 
into that.
    Ms. O'Neil. I think there are many ways that we could 
deepen our ties, and right now is a very important moment to do 
so in part because Mexico is changing the rules in its energy 
sector.
    After 70-plus years of being closed and having been 
controlled only by a state-owned enterprise it is now going to 
be open for private investment and in the coming months they 
are going to do their first auctions, allowing in all sorts of 
national or all international energy companies, and it is 
really a time to right the rules there to create a very open, 
transparent, competitive and safe industry that will affect us, 
given our geographic proximity.
    So it is a moment to do so. I mean, one of the biggest 
things I believe is infrastructure, and we have seen with both 
of our neighbors, these are two of our largest energy partners 
and trade goes back and forth each way and if we deepen that 
these are also areas--these are democracies.
    These are open societies. Of course, there are some issues 
here and there but these are very stable, you know, energy 
partners compared to many other places around the world which 
we have talked about even here in the Western Hemisphere.
    But if we can tie ourselves we actually provide a very 
stable, but also resilience is very important for our energy 
sector. I live in New York City and back a couple years ago 
when Hurricane Sandy came in we understood for 2 weeks what it 
is like not to have power, what it is like to be without energy 
and the importance of resilience in our system whether it is 
electricity, whether it is gas supplies and the others is vital 
for economic production but just for our well-being.
    In fact, in that particular moment our ties with Canada 
both in terms of our electricity grids but our agreements with 
utility companies brought New York City and the area much more 
quickly, and I do believe, now that Mexico is changing, we can 
do the same thing along the southern border and to benefit all 
the states that are along that border and even those further 
in, providing a resiliency there so that if there are problems 
in the power grid, whether it is because of overloading or 
whether it is because of cyber security and other challenges 
that we will have as we go forward, infrastructure is vitally 
important to make sure these flows are safe back and forth.
    And the other thing, let me just mention quickly, is this 
side of we are a geographic region together and we have one of 
the biggest economic blocs, and so what we decide to do on 
energy and the mix we have in terms of clean and renewable and 
other types of traditional will affect the world.
    And so as we think about how we will change it over the 
next several years and decades, doing it with our neighbors is 
increasingly vital. So as we set energy guidelines, standards 
for cars, for safety and the like that, too, will be important 
to make sure that the economic benefits stay within the region 
so that we don't have differing types of regulations between 
Canada, between the United States and Mexico.
    So when you are a company, a manufacturer or others you 
think about the region, the types of systems you had put in 
place or the types of energy choices you make you will be doing 
it within a region and particularly given, as I was speaking 
about, this underlying economic production platform that 
happens now that is occurring in North America, having energy 
incentives align across the three countries I think is very 
important as we grow on that economic side.
    Mr. Emmer. You know, if you could expand on that just a 
little bit, because the security issues in Mexico are a little 
bit different than the security issues we face in Canada, and 
you talk about infrastructure and I would agree completely.
    But how do you ensure or what can we do to ensure that it 
can be done first so that you attract private investment 
because they want to realize a return but that you can do it in 
a low risk safe manner, cost effective manner?
    Is there anything the U.S. should be considering in that 
regard as you move forward with, for instance, Mexico?
    Ms. O'Neil. In the energy sector in particular in that 
narrow area there are things we can do and many, you know, 
international oil companies are used to dealing in areas that 
are quite risky.
    And so they have some means of doing it already, systems in 
place for some types of things. But overall, I think this gets 
to our larger relationship with Mexico and I believe right now 
Mexico is at really a fundamental place.
    It has done, I would want to acknowledge, an incredible set 
of economic reforms that can set that country up for growth and 
prosperity down the road.
    But it has yet to really grapple with the corruption in 
rule of law and we are seeing that over just the last few 
months some of the challenges.
    But in every crisis there is an opportunity and so if his 
government decides that for their legacy and for Mexico for the 
future to really take on corruption, to change the rules that 
are there, to try to dive in and create a new justice system, 
which is already happening but which has been slow to be 
implemented, if they do take this on and make it their priority 
I think we can come in whether through the Merida Initiative or 
other types of programs that we have and help them do that, and 
they will need to do things like retrain almost 40,000 lawyers 
and judges and official clerks in the new justice system and we 
have lawyers and other organizations that can do that.
    We can help bring in Colombians or others, as we were 
speaking about, who know how to professionalize police forces. 
There are things we can do to help this government when they 
decide to step in.
    Mr. Emmer. Thank you very much. I see my time has expired.
    Mr. Duncan. Thank you. Great line of questioning. When we 
were there on Codel Royce in November in Mexico a lot of the 
things you talk about, Dr. O'Neil, were discussed, and just for 
the record we were there when the 43 children were still 
missing before they found any remains and demonstrations in 
Mexico City of basically college-age kids and the paintings of 
the children and themselves that were missing it was quite 
moving.
    But one thing we did we met with civil society about the 
corruption and bribery that goes on within the judicial system 
of folks that are arrested so having someone there as a public 
advocate and what they are trying to do.
    I think the reforms if they--if they take hold I think it 
absolutely right that Mexico will benefit from that 
economically, and so I am excited about some of the things you 
talked about.
    Great line of questions, especially on the energy sector. 
Cross border energy, whether it is our natural gas and Mexico's 
development of their natural gas but the electrical grid is 
already shared in certain border towns and so how do we work 
with our members.
    So thanks for that line of questioning, Tom, and I will now 
yield 5 minutes to the gentleman from California, Mr. 
Lowenthal.
    Mr. Lowenthal. Well, thank you. First of all, my goals have 
been met. I really came just to learn and to listen. I have 
learned a lot about corruption.
    I have learned more about energy, trade, security issues, 
economic development, drugs. But I am going to ask a question 
or two. I want to switch to something that Mr. Farnsworth said 
about talking about how these--how nations are in our 
hemisphere are beginning to deal with some of the marginalized 
populations.
    Just recently, Senator Markey--I don't think you know--
Senator Markey and I introduced legislation that would direct 
the Department of State to further demonstrate its commitment 
to the LGBT human rights as a foreign policy priority of the 
United States by establishing a position within the State 
Department in the Bureau of Democracy, Human Rights and Labor 
just for to deal with LGBT issues.
    I wondered if you could talk to me a little bit about 
either Mr. Farnsworth or anybody else on the panel really the 
state of affairs with regard to the LGBT community in the 
Western Hemisphere.
    We know that there are some nations like Jamaica, Honduras 
where the plight--where I am very concerned and many of us are 
very concerned about the plight of the LGBT community.
    Yet there are other countries like Uruguay and Costa Rica 
where there have been tremendous positive movement. And I am 
wondering how do we begin to deal with it in terms of U.S. 
interests as we begin to really begin to focus on human rights 
issues whether it is Cuba or anywhere in the states. Is this an 
issue that we can play some role in?
    Mr. Farnsworth. Well, thank you very much for the question 
and welcome to the subcommittee.
    Mr. Lowenthal. Thank you.
    Mr. Farnsworth. It is very nice to see you again, Mr. 
Lowenthal. You know, these are issues that fit squarely within 
the concept of social inclusion and, again, the idea that 
everybody has a unique and important role to play in the 
development of the country based on their unique 
characteristics and you cannot by law or legislation or 
informally exclude whole sectors of society.
    That just doesn't work anymore. And so you ask what are 
some of the things the United States can do. Well, in the first 
instance, education I think is critically important.
    The idea that some behaviors simply are not acceptable, and 
I think this is something that the State Department has tried 
to do and is doing a little bit more of, can do more--other 
governments as well.
    But like anything these are some difficult issues. They are 
long ingrained within the Western Hemisphere. Each country is 
different. Each community within countries can be different at 
times and I think the real answer is just to keep pushing, keep 
raising consciousness, if we can use that term of art that was 
popular some time ago, but the idea that certain behaviors are 
just not acceptable in a region that values democracy, that 
values human rights and that values the individual uniqueness 
of every of its citizens.
    Mr. Lowenthal. Anybody else want to take a stab at that?
    Ms. Glick. Quick stab at it. You mentioned Uruguay which 
was, I think, the first country in the world that legalized gay 
marriage.
    Mr. Lowenthal. Yes.
    Ms. Glick. It is one of these things that this is the arc 
of history that you are seeing move right before our eyes 
quickly in the United States as well as in other countries in 
the world. As Mr. Farnsworth said, these are long ingrained 
traditions.
    There is a lot of impact that comes from various religious 
groups as well. I think that it is--the easiest way to look at 
this is the same way in which we look at issues related to the 
LGBT community in the Unites States. They are going to have an 
impact.
    There will be changes in some countries. There won't be 
changes in others in the long or in the short term, and it will 
be an interesting thing to watch and see progress.
    But I think in terms of social inclusion and engaging with 
civil society this too is something that is going to come 
largely from the populations themselves, and is it really one 
of the things that the United States has to raise the flag 
about.
    I am not entirely sure that it is our responsibility or 
even our right to do so. We can call out human rights 
violations and hate crimes when we see them. I think that is 
very valuable.
    But I think in terms of these populations and communities 
in their own countries they can look to the United States for 
examples and they can look to other countries in the region as 
well as examples.
    Mr. Lowenthal. Thank you. I too want to keep raising the 
issues like marginalized populations on this committee. I want 
to maybe just quickly, if I have a minute, I have heard a lot 
about the development of the energy sector, the interdependence 
between and the relationship between the United States and our 
partners.
    I haven't heard very much about except a little bit from 
Dr. O'Neil about renewable energy, climate change, a real--is 
there--what kind of commitment? Would anybody really like to 
address that? Dr. Ellis.
    Mr. Ellis. Thank you very much. There actually is 
considerable progress in renewable energy across the Americas. 
I actually can say this is one of the areas in which China, for 
better or worse, has been beneficial with respect to the 
combination of low cost loans and other things.
    When we look at countries such as Ecuador, but other 
countries such as Brazil, we find tremendous advances in the 
hydroelectric sector although that, of course, has side impacts 
on things such as local populations who live there and that has 
created problems as well.
    Significant impacts in solar--the number one Chinese 
investment, over $1 billion, programmed in Chile is not in 
copper but is actually in the north of the country in solar 
power.
    And so in many ways we do see that leadership, I think, in 
renewable in part through the United States but in part through 
other actors as well, and Japan and others have played 
constructive roles in that as well.
    Mr. Lowenthal. Thank you.
    Mr. Duncan. The gentleman's time has expired. I am going to 
allow just briefly if you would like to chime in--I know Mr. 
Farnsworth wanted to just real briefly.
    Mr. Farnsworth. Thanks, sir. Just one statistic--Latin 
America has the cleanest energy matrix of any region in the 
world based on hydro, based on some of the renewable in their 
energy matrix, and therefore, is an obvious partner for us in 
developing some of these issues.
    Mr. Duncan. Yes. Thank you. Only because I like you. No, I 
am just kidding.
    Well, that concludes--in the sense of time that concludes 
the hearing. I think the panelists have been absolutely 
fabulous, very insightful in providing information, today, I 
think that we have all benefitted from. I am going to ask that 
the record will remain open for 10 days for submission of 
remarks or extraneous materials that might be beneficial to the 
overall concept of the hearing.
    I look forward to having further conversations with all the 
panelists as we go forward. I plan on helping America focus on 
this hemisphere and rebuilding some ties and relationships 
which I think are very, very important.
    I look forward to working with the ranking member, and I 
appreciate his input and with that the committee will stand 
adjourned.

    [Whereupon, at 12:41 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
                 <triangle><brit-pound><Rx><star>a<Rx>\

Written responses from Mr. Eric Farnsworth, vice president, Council of 
   the Americas and Americas Society, to questions submitted for the 
record by the Honorable Jeff Duncan, a Representative in Congress from 
the State of South Carolina, and chairman, Subcommittee on the Western

                               Hemisphere
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
                                 
</pre></body></html>
